OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




 USAID Has Disbursed $9.5 Billion for Reconstruction
 and Funded Some Financial Audits as Required, but
 Many Audits Face Significant Delays, Accountability
        Limitations, and Lack of Resources




          This report was originally issued on April 30, 2012. It was reissued on May 2,
          2012, to reflect the U.S. Agency for International Development’s (USAID) written
          comments on a draft of this report. USAID provided its comments to SIGAR after
          the original report had been publically released, but SIGAR considered the
          comments substantive and necessary for a full understanding of the issues presented
          and USAID’s efforts to address them. As a result, SIGAR made changes to the
          summary page, the transmittal letter (page i), and the Comments section (page 22) to
          reflect USAID’s comments. USAID’s comments are reproduced in appendix III.




                                         April 30, 2012




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits
                 SIGAR
                                                            SIGAR Audit-12-9                                                                    April 2012
                                                               USAID Has Disbursed $9.5 Billion for Reconstruction and Funded
                                                             Some Financial Audits as Required, but Many Audits Face Significant
                                                                  Delays, Accountability Limitations, and Lack of Resources
Special Inspector General for Afghanistan Reconstruction
What SIGAR Reviewed

Since 2002, the U.S. Agency for International Development (USAID) has awarded $15.2 billion in Afghan reconstruction funds to its
implementing partners through 305 major (over $100,000) contracts, grants, cooperative agreements, and other funding mechanisms.
Financial audits of funds expended under such awards provide USAID with independent assessments of how those funds were used.
Ensuring that financial audits are conducted in a timely manner is critical to provide accountability over reconstruction funds in
Afghanistan where USAID has experienced challenges in monitoring program implementation.
This report (1) identifies the awards that USAID has funded for Afghanistan reconstruction since 2002 and (2) assesses the extent to
which financial audit requirements had been met for the various types of awards and implementing partners. To address these
objectives, SIGAR selected a random sample of 64 awards to determine if audits had been done, reviewed applicable requirements
and award files, and met with USAID contracting officers and other officials. SIGAR conducted its work in Kabul, Afghanistan, and
Washington, D.C., from March 2011 to March 2012 in accordance with generally accepted government auditing standards.


What SIGAR Found

Since 2002, USAID has made 305 major awards to 149 different implementing partners to fund reconstruction activities in
Afghanistan. As of September 30, 2011, USAID had disbursed $9.5 billion through these awards, which had a total estimated value
of $15.2 billion. The awards included 136 contracts and task orders, 93 cooperative agreements, 53 grants, and 23 interagency
agreements. The majority of USAID funding went to U.S. contractors, U.S. nonprofit organizations, and multilateral organizations.
Ten implementing partners accounted for about 70 percent of total USAID funding.
Based on SIGAR’s sample of 64 awards, SIGAR found that incurred cost audits of U.S.-based contractors were delayed due to a
backlog of such audits caused by understaffing at the Defense Contract Audit Agency (DCAA) and lack of funding by USAID. As a
result, nearly $1.1 billion disbursed by USAID since 2003 to the 13 U.S. contractors in our sample had not been audited by DCAA as
of September 30, 2011. Annual audits of U.S.-based nonprofit organizations were conducted in accordance with Office of
Management and Budget Circular A-133, but they often did not include specific USAID Afghanistan awards, thereby providing
limited accountability over reconstruction funds. Annual financial audits of awards to multilateral organizations and other non-U.S.
entities were often conducted. However, in some instances, these audits only partially met requirements or the results were not
provided to USAID. Audit requirements for funds provided to other U.S. agencies were vague or, in many cases, audits were not
required.
Although the majority of USAID’s 305 major awards for Afghanistan reconstruction had been completed or had expired as of
September 30, 2011, most had not been closed due, in part, to delays in conducting close-out audits, as required. Therefore, USAID
lacked assurance over the use and disposition of its funds and property for completed or expired awards, and also delayed the
potential recovery of $103 million in unliquidated obligations and $27.3 million in unpaid cost share, which are resources the
implementing partner is responsible for providing. Finally, although as much as half of the funds that USAID provides for contracts,
grants, and cooperative agreements may flow down to sub-recipients, USAID lacked transparency with regard to whether financial
audits of sub-awards were being conducted, as required.

What SIGAR Recommends

To strengthen accountability over USAID funds provided to its implementing partners in Afghanistan, SIGAR recommends that the
Administrator of USAID (1) provide the funding needed to increase the quantity and timeliness of incurred cost audits of U.S.
contractors, (2) develop a system to identify and prioritize award-specific audits of U.S.-based nonprofit organizations, (3) expedite
the use of close-out audits for expired awards with unexpended obligations and unpaid cost share, and (4) amend prime awards to
include a requirement for a financial audit plan for sub-awards. When preparing the final report, SIGAR considered comments from
USAID. Overall, USAID generally concurred with the recommendations and noted that it has taken some steps to address them.



                       For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


April 30, 2012

The Honorable Rajiv Shah
Administrator, U.S. Agency for International Development
Dr. S. Ken Yamashita
USAID Mission Director to Afghanistan

This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of the U.S. Agency for International Development’s (USAID) financial
audit coverage of funds provided to contractors, grantees, and other recipients and implementing partners
for reconstruction activities in Afghanistan. This report includes four recommendations to the
Administrator of USAID to help strengthen the agency’s accountability over such funds.

When preparing the final report, we considered comments from USAID. Overall, USAID concurred with
our recommendations and noted that it has taken some steps to address them. These comments are
reproduced in appendix III. We conducted this performance audit under the authority of Public Law No.
110-181, as amended, the Inspector General Act of 1978, and the Inspector General Reform Act of 2008.




Steven J Trent
Acting Special Inspector General for
    Afghanistan Reconstruction




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                    Page i
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Since 2002, USAID Has Disbursed Nearly $9.5 Billion under 305 Awards for
    Afghanistan Reconstruction ................................................................................................................... 4
Financial Audits of Many USAID Implementing Partners Have Not Been Done,
    but Resources for Audits Were Limited ................................................................................................. 6
Conclusions ................................................................................................................................................. 21
Recommendations ....................................................................................................................................... 21
Comments ................................................................................................................................................... 22
Appendix I: Scope and Methodology ........................................................................................................ 23
Appendix II: USAID Financial Audit Requirements Based on Type of
   Implementing Partner ........................................................................................................................... 26
Appendix III: Comments from the U.S. Agency for International Development ...................................... 27


TABLES

Table 1: Implementing Partners Receiving Largest Amounts of USAID
   Afghanistan Reconstruction Funds, as of September 30, 2011 (dollars in
   millions).................................................................................................................................................. 5
Table 2: Contracts, Grants, Task Orders, or Cooperative Agreements with U.S.-
   based Contractors, as of September 30, 2011 (dollars in millions) ........................................................ 7
Table 3: Grants and Cooperative Agreements to U.S. Nonprofit Organizations,
   as of September 30, 2011 (dollars in millions)..................................................................................... 11
Table 4: Grants to Multilateral Organizations, as of September 30, 2011 (dollars
   in millions) ........................................................................................................................................... 13
Table 5: Grants to Afghan Government Entitites, as of September 30, 2011
   (dollars in millions) .............................................................................................................................. 15
Table 6: Cooperative Agreements to Non U.S.-based Nonprofit Organizations,
   as of September 30, 2011 (dollars in millions)..................................................................................... 16
Table 7: Awards to Other U.S. Government Agencies, as of September 30, 2011
   (dollars in millions) .............................................................................................................................. 18
Table I: 64 Awards Selected for Audit Sample, as of September 30, 2011
   (dollars in millions) .............................................................................................................................. 24
Table II: Financial Audit Requirements by Type of Implementing Partner .............................................. 26


FIGURES

Figure 1: USAID Disbursements under Major Awards for Afghanistan
    Reconstruction, by Type of Implementing Partner, as of September 30, 2011 ...................................... 4
Figure 2: USAID Funding for DCAA Incurred Cost Audits, Fiscal Years 2009-
    2011 (dollars in millions) ....................................................................................................................... 9




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                                                                      Page ii
ABBREVIATIONS AND ACRONYMS

ADS                     Automated Directives System
ARTF                    Afghanistan Reconstruction Trust Fund
CAO                     Control and Audit Office
DCAA                    Defense Contract Audit Agency
FAR                     Federal Acquisition Regulation
OIG                     Office of Inspector General
OMB                     Office of Management and Budget
PAPA                    Participating Agency Program Agreement
PASA                    Participating Agency Service Agreement
SIGAR                   Special Inspector General for Afghanistan Reconstruction
UN                      United Nations
UNDP                    UN Development Program
USAID                   U.S. Agency for International Development




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                   Page iii
    USAID Has Disbursed $9.5 Billion for Reconstruction and Funded Some
    Financial Audits as Required, but Many Audits Face Significant Delays,
              Accountability Limitations, and Lack of Resources


Since 2002, the U.S. Agency for International Development (USAID) has provided about $9.5 billion in
Afghanistan reconstruction funds 1 to contractors, grantees, and other third-party entities (referred to
collectively as implementing partners) 2 by means of 305 individual contracts, task orders, grants,
cooperative agreements, and other funding mechanisms (referred to collectively as awards). USAID
officials are responsible for providing reliable, useful, and timely information for transparency and
accountability of the programs that are funded through these implementing partners. Financial audits
provide independent, objective, nonpartisan assessments of the stewardship, performance, or cost of
government policies, programs, or operations, depending on the type and scope of the audit. 3 Conducting
financial audits is critical to help ensure that implementing partners have properly accounted for those
funds and used them as intended. Achieving a high level of accountability over USAID funds for
reconstruction efforts in Afghanistan is particularly important given that (a) the United States has
significant national security interests in Afghanistan, a country which ranks among the most corrupt in the
world, and (b) USAID has experienced a longstanding inability to adequately monitor program
implementation due to security concerns.4

We initiated this audit to determine the extent to which financial audits were being conducted of costs
incurred under USAID-funded awards for Afghanistan reconstruction. Specifically, our objectives were
to (1) identify the universe of awards that USAID has funded for Afghanistan reconstruction since 2002
and (2) assess the extent to which financial audit requirements had been met for various types of
implementing partners and awards, including expired awards and sub-awards.

To identify the universe of awards, we obtained data from USAID regarding major awards issued
between February 1, 2002 and September 30, 2011. We conducted data reliability tests to ensure the
accuracy and completeness of that data. To determine the extent to which financial audits had been
performed on those awards, we selected a random sample of 64 awards and reviewed applicable files to
determine whether financial audits had been performed. As of September 30, 2011, USAID had
disbursed almost $2.5 billion under these 64 awards (26 percent of disbursements for all 305 major
awards 5). We also reviewed relevant laws, regulations, policies, standard operating procedures, and other
guidance relating to financial audits of USAID implementing partners, and interviewed USAID officials
in Washington, D.C., and Kabul, Afghanistan, including contracting and assistance officers responsible

1
  For purposes of this report, Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by USAID that involves the use of amounts appropriated or otherwise made
available for the reconstruction of Afghanistan. Since fiscal year 2002, Congress has made funds available for
Afghan reconstruction purposes to USAID through eight separate appropriations accounts, including the Economic
Support Fund, Development Assistance, Child Survival and Health, and P.L. 480, Title II (food aid).
2
  Implementing partners include recipients of contracts, cooperative agreements, grants, and interagency agreements.
3
  U.S. Government Accountability Office, Government Auditing Standards, Sections 1.01 and 1.02, GAO-07-731G,
July 2007.
4
  Since 2004, USAID/Afghanistan’s Federal Managers Financial Integrity Act self-assessment has identified the lack
of project monitoring by designated USAID staff as a significant internal control deficiency.
5
  USAID’s Mission for Afghanistan defines “major” awards as all contracts, grants, cooperative agreements, and
interagency agreements over $100,000, and excludes personal services contracts.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                             Page 1
for contracts and grant agreements, as well as their technical representatives. In addition, we met with
USAID financial management personnel and officials of USAID’s Office of Inspector General (OIG)
based in Washington, D.C., and Kabul, Afghanistan. We conducted our work in Kabul, Afghanistan, and
Washington, D.C., from March 2011 to March 2012 in accordance with generally accepted government
auditing standards. A more detailed discussion of our scope and methodology is included in appendix I.


BACKGROUND

USAID has disbursed billions of dollars as part of the larger U.S. government and international effort to
help the Afghan government secure and rebuild its country following the removal of the Taliban regime
by coalition troops after the September 11, 2001, terrorist attacks in the United States. USAID’s
assistance programs in Afghanistan have focused on areas such as health, education, economic growth,
agriculture, infrastructure, and governance to help stabilize the country and build the Afghan
government’s capacity to provide services and security for its citizens. The majority of USAID assistance
to Afghanistan has been provided through various implementing partners by means of contracts, task
orders, grants, cooperative agreements, and other funding mechanisms. According to USAID records,
between February 1, 2002, and September 30, 2011, the agency made 305 major awards with a total
estimated value of $15.2 billion, of which $10.4 billion had been obligated and $9.5 billion disbursed as
of September 30, 2011. The majority of these awards were overseen by technical program offices at
USAID’s Mission in Kabul.

Financial audits of contracts and grants help USAID and other stakeholders assess whether implementing
partners have accounted for and used USAID funds as intended. Specifically, in addition to rendering an
opinion as to whether an implementing partner’s financial information is fairly presented, financial audits
also evaluate a recipient's internal controls to identify material weaknesses and perform tests to determine
whether a recipient complied with applicable laws and regulations. Financial audits may also be used to
help finalize indirect cost rates, close out awards, settle termination claims, and review compliance with
cost-sharing agreements. In addition, financial audits of recipients often result in savings to the U.S.
government by identifying costs that may be disallowed and recovered because they do not comply with
the terms of an award, lack adequate supporting documentation, are not allocable to a specific program, or
are deemed unreasonable. Less measureable are the potential savings that may accrue due to the deterrent
effect that a financial audit program has on implementing partners who may otherwise be more inclined to
misuse USAID funds.

Chapter 591 of USAID’s Automated Directives System (ADS) describes the agency’s policies and
procedures pertaining to financial audits of implementing partners. 6 ADS 591 lists the primary
responsibilities of individuals and offices at USAID headquarters and field missions with regard to
determining which awards should be audited and ensuring that required financial audits are conducted.
According to ADS 591, awards issued by USAID may be subject to a variety of financial audit
requirements depending on the type of implementing partner, type of award, whether the implementing
partner is based in the U.S. or another country, the amount of Federal funding received, and the status of
the award (see appendix II). Generally, for-profit companies are subject to annual incurred cost audits by
the Defense Contract Audit Agency (DCAA), and non-profit organizations with funding levels above
designated thresholds are required to contract with private audit firms to conduct annual financial audits.
USAID may also opt to have additional audits performed by contracting directly with independent audit
firms. Funds provided under USAID awards may also require other financial audits depending on the
status and circumstances of the award. For example, awards that expire as planned, or are terminated
early, normally require a “close-out” or termination audit to help determine final indirect cost rates and
evaluate the provision of agreed-upon cost-sharing. In addition, most USAID awards require the primary

6
 ADS is USAID's directives management program. Agency policy directives, required procedures, and helpful,
optional material are drafted, cleared, and issued through ADS. Agency employees must adhere to these policy
directives and required procedures.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                          Page 2
implementing partner to “pass down” financial audit requirements in awards to sub-partners and ensure
that costs incurred under sub-awards are audited.

USAID generally funds annual financial audits of U.S. contractors from its separately appropriated
operating expense account. For other recipients, USAID often allows the use of program funds to
cover audit costs. The costs of such audits are often included as line items in the budgets of program-
funded grants and cooperative agreements. Also, USAID policy specifically states that the agency may
perform audits of host government recipients and sub-recipients using program funds.

Among other duties, USAID’s OIG is responsible for ensuring that financial audits of USAID
implementing partners are conducted in accordance with appropriate standards. Generally, only audit
organizations, which the OIG has determined to be eligible, may perform financial audits of USAID's
partners. These organizations may include independent audit firms contracted by grantees, public
accounting firms under contract to USAID, Federal audit agencies such as DCAA, host country supreme
audit institutions, or the OIG. As of March 2011, the OIG had approved 12 independent firms to conduct
financial audits of USAID implementing partners in Afghanistan.

To fulfill its oversight responsibilities, the OIG is required to review all financial audit reports of USAID
implementing partners. Additionally, the OIG is to conduct quality control reviews of selected financial
audits to ensure that they were performed in accordance with applicable standards. The OIG transmits
award-specific audit reports it reviews to USAID management, along with related audit recommendations
which the OIG tracks and reports on semiannually to the U.S. Congress. As of September 30, 2011, the
OIG reported transmitting a total of 39 such audit reports covering $857 million in USAID funds
expended under Afghanistan reconstruction awards through 12 different awards. According to OIG
records, those audit reports included a total of $114 million in costs that were questioned by the financial
auditors. USAID contracting and assistance officers sustained, or agreed to recover, about $99.7 million
of those questioned costs. In addition, the OIG reviews organization-wide financial audits of U.S.-based
contractors conducted by DCAA and U.S.-based nonprofit organizations conducted by private audit
firms.

Last year, USAID took steps to increase the coverage of its financial audit program for implementing
partners working on Afghanistan reconstruction activities. In April 2011, the Director of USAID’s Kabul
Mission signed an action memorandum initiating a program to audit all locally incurred costs by program-
funded implementing partners to improve USAID’s ability to ensure that its funds are properly accounted
for and spent in accordance with applicable laws, regulations, and policies. The memorandum indicated
that a more robust financial audit program would become a cornerstone of the USAID Administrator’s
Accountable Assistance for Afghanistan (A3) initiative, designed to address the concern that Afghanistan
is a difficult operating environment which poses significant challenges to executing proper financial
controls. In particular, the memorandum stated that the goal of the new initiative was to limit the
likelihood that USAID assistance would directly or inadvertently support terrorist groups or be diverted
from its development purpose by extortion or corruption. However, the new audit program has not been
fully implemented and will need time to recruit and train qualified staff, develop the capacity of local
audit firms, and obtain necessary funding.




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                      Page 3
SINCE 2002, USAID HAS DISBURSED NEARLY $9.5 BILLION UNDER 305 AWARDS
FOR AFGHANISTAN RECONSTRUCTION

USAID records indicate that it issued a total of 305 major awards to 149 different implementing partners
between February 2002 and September 2011 to fund reconstruction activities in Afghanistan and
disbursed $9.5 billion under these awards. 7 The 305 awards included 136 contracts and task orders, 93
cooperative agreements, 53 grants, and 23 interagency agreements to fund other U.S. government
agencies. As of September 2011, 100 of these awards were ongoing, while 205 had expired. Most
awards were managed by technical program offices within USAID’s Kabul Mission. 8

As of September 30, 2011, almost three fourths of these disbursements had gone to U.S. implementing
partners and recipients, such as for-profit contractors, nonprofit organizations, and other government
agencies. Nearly one-fourth of the funding went to multilateral organizations, such as the World Bank
and United Nations (UN) agencies. Only about 3 percent went to foreign implementing partners and
recipients, including the Afghanistan government. Figure 1 shows the percentage of USAID funds
provided to each type of implementing partner.


Figure 1: USAID Disbursements under Major Awards for Afghanistan Reconstruction, by
Type of Implementing Partner, as of September 30, 2011
                   Other U.S.
                   agencies,
                     1.3%

                                        U.S. nonprofit
                                        organizations,                              Afghan government
                                            22.4%                                      entities, 1.0%

                   U.S. for-profit
                                                              Other, 2.9%          Foreign for-profit
                 companies, 50.4%
                                                                                   companies, 1.7%
                                           Multilateral
                                                                                     Foreign nonprofit
                                          organizations,
                                                                                    organizations, 0.3%
                                              22.9%



Source: SIGAR analysis of USAID data.
Although USAID has issued major awards for Afghanistan reconstruction to 149 different implementing
partners and recipients since 2002, as of September 30, 2011, 10 implementing partners accounted for
about 70 percent of USAID funding for those awards (see table 1).




7
  The total award value as of September 30, 2011, was $15.2 billion; of that amount, $10.4 billion had been
obligated.
8
  USAID’s technical program offices in Kabul include the Offices of Agriculture, Democracy and Governance,
Economic Growth, Social Sector Development (Education and Health), Infrastructure Energy and Engineering,
Program and Project Development, and the Stabilization Unit. In addition, five administrative awards, including a
$361 million contract for chartered air service, were managed by the Mission’s Executive Office.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                            Page 4
Table 1: Implementing Partners Receiving Largest Amounts of USAID Afghanistan
Reconstruction Funds, as of September 30, 2011 (dollars in millions)
                                             Type of                                Total
                                                               Type of                          Total        Total
Implementing partner                         implementing                      estimated
                                                               award(s)                     obligated   disbursed
                                             partner                               value

Louis Berger Group, Inc./Black & Veatch      U.S. contractor   Contracts        $2,076       $1,814       $1,664

                                             Multilateral
World Bank                                                     Grant            $2,079       $1,072        $972
                                               organization

                                             U.S. nonprofit    Contracts and
International Relief and Development, Inc.     organization      cooperative    $1,307         $932        $844
                                                                 agreements

                                             Multilateral      Grants and
United Nations agencies                        organization      cooperative      $841         $811        $786
                                                                 agreements

                                                               Contracts and
Development Alternatives, Inc.               U.S. contractor     cooperative    $1,396         $836        $719
                                                                 agreement

                                                               Contracts and
Chemonics International, Inc.                U.S. contractor     cooperative      $972         $692        $599
                                                                 agreement

Deloitte Consulting                          U.S. contractor   Contracts          $330         $286        $272

                                                               Contracts and
Creative Associates International, Inc.      U.S. contractor     cooperative      $270         $268        $244
                                                                 agreements

                                             Multilateral      Cooperative
International Organization for Migration                                          $282         $277        $239
                                               organization      agreements

Tetra Tech/ Associates in Rural
                                             U.S. contractor   Contracts          $516         $293        $232
  Development, Inc.

Total                                                                          $10,071       $7,282       $6,571

Source: SIGAR analysis of USAID data.
Note: Totals affected by rounding.

The U.S. contractors receiving the largest amount of USAID funding for Afghanistan have been Louis
Berger Group, Inc., and Black & Veatch, which received about $1,664 million since 2002. This amount
includes $701 million received between 2002 and 2007 under a contract to Louis Berger Group, Inc., to
provide rehabilitation of economic facilities and services. In addition, Louis Berger Group, Inc., is a
major participant in a joint venture with Black & Veatch. The joint venture received $942.5 million
between 2006 and 2011 under an indefinite quantity contract with 27 separate construction task orders.
Black & Veatch also received $20.6 million under another contract. The U.S. nonprofit organization
receiving the largest amount of USAID funding for Afghanistan reconstruction has been International
Relief and Development, Inc., which has received $844 million since 2004 through five cooperative
agreements and three contracts. The multilateral organization receiving the largest amount of funding has
been the World Bank, through which USAID disbursed $972 million to the Afghanistan Reconstruction
Trust Fund (ARTF). 9 USAID also provided a total of $786 million to various UN entities (principally the

9
 ARTF was established in 2002 to provide a vehicle for international donors to pool resources and coordinate their
support for the reconstruction of Afghanistan. Donor contributions enable the ARTF to finance both the operating
costs of the Afghan government and key national development programs under the Afghan National Development
Strategy.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                             Page 5
UN Development Program and UN Office of Project Services) through 21 grants and 5 cooperative
agreements.


FINANCIAL AUDITS OF MANY USAID IMPLEMENTING PARTNERS HAVE NOT
BEEN DONE, BUT RESOURCES FOR AUDITS WERE LIMITED

Financial audits of costs incurred for Afghanistan reconstruction by some USAID-funded implementing
partners were significantly delayed; not always conducted, as required; or provided limited assurance that
funds disbursed under USAID awards to those implementing partners were properly used and accounted
for. Specifically, annual incurred cost audits of U.S.-based contractors—the largest category of
implementing partners of USAID funds for Afghanistan—were years behind schedule because DCAA
lacked the staff to complete timely audits, and USAID budgeted only a small portion of the funds required
for DCAA audits. In addition, annual audits of U.S.-based nonprofit organizations, although conducted
as required, may not include specific USAID awards in Afghanistan, thereby providing limited
accountability over USAID funds expended for reconstruction. Annual audits of USAID funds provided
to most other entities were conducted, although a number of these audits only partially met requirements,
audit requirements were sometimes vague or not applicable, or the results were not always provided to
USAID as requested. Further, most expired awards were not closed out due, in part, to delays in
conducting close-out audits. As a result, USAID lacked assurance as to the use and disposition of funds
and property under expired awards and delayed potential recovery of $103 million in unliquidated
obligations and $27.3 million in unpaid cost share—resources the implementing partner is responsible for
providing. In addition, although as much as half of the funds that USAID provides for contracts, grants,
and cooperative agreements may flow down to sub-recipients, USAID lacked transparency with regard to
whether financial audits of sub-awards were being conducted, as required.


Incurred Cost Audits of U.S.-based Contractors Were Significantly Delayed due to Audit
Backlog and Lack of Resources

The Federal Acquisition Regulation (FAR) designates DCAA as the U.S. government audit agency for
contractors other than educational institutions and nonprofit organizations and requires DCAA to
perform audits of costs incurred by contractors to determine the acceptability of these costs. 10
Accordingly, USAID policy states that DCAA will normally audit U.S. for-profit firms for which USAID
is the cognizant or principal funding agency. 11 Per USAID’s policy, the Bureau for Management, Office
of Acquisition and Assistance, Contract Audit and Support Division must assess risks associated with
all USAID-funded U.S. contractors at least annually to determine if they should be audited. Per the
FAR, U.S. contractors must provide annual incurred cost submissions within 6 months after the end
of the company’s fiscal year. 12 Incurred cost audits include an evaluation of both direct and indirect
costs, with the objective of determining whether the costs are reasonable, allocable, and allowable.
USAID policy indicates that if DCAA cannot be responsive to USAID’s needs for an audit, a non-
Federal public accountant may be used to perform the audit. DCAA’s contract audit manual describes
timeliness as a characteristic of quality audit reports.13 According to the manual, audit reports must be
timely to be useful. DCAA has established a standard performance goal of completing corporate incurred
cost audits within 12 months. Consequently, incurred cost audits would ideally be completed 18 months
after the end of a contractor’s fiscal year.

10
   See FAR 42.101. Also, DCAA guidance for contractors indicates that DCAA can audit both Department of
Defense contractors and non-Defense contractors. Non-Defense contractors are audited on a reimbursable basis and
only upon request by the cognizant agency.
11
   ADS 591.3.1.2.
12
   FAR 52.216-7.
13
   DCAA Contract Audit Manual, section 10-103.1.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                         Page 6
Our sample of 64 awards included 21 contracts, task orders, or cooperative agreements issued between
fiscal years 2002 and 2011 that are subject to incurred cost audits. None had been done. Table 2 shows
the amount of USAID funding provided to each of the U.S. contractors in our sample.


Table 2: Contracts, Grants, Task Orders, or Cooperative Agreements with U.S.-
based Contractors, as of September 30, 2011 (dollars in millions)
U.S.-based contractor                                               Total       Total      Total
                                                               estimated    obligated disbursed
                                                                   value

Development Alternatives, Inc.                                   $751.7       $469.8      $437.3

Louis Berger Group, Inc./Black & Veatch Joint Venture            $218.2       $211.8      $201.5

Central Asia Development Group, Inc.                             $216.5       $216.5      $195.9

Emerging Markets Group                                            $56.3        $55.9       $55.6

Chemonics International, Inc.                                     $66.7        $48.7       $36.9

Checchi & Company                                                 $41.3        $39.3       $31.5

AECOM                                                             $34.5        $31.0       $27.0

Creative Associates International, Inc.                           $38.9        $36.3       $26.8

Associates in Rural Development                                   $51.9        $28.3       $24.4

Advanced Engineering Associates, International                    $18.7        $18.7       $17.6

DPK Consulting                                                    $33.8        $23.6       $17.3

International Resources Group                                     $33.0        $23.5       $16.2

Global Strategies Group                                             $7.0        $7.0        $7.0

Total                                                          $1,568.5     $1,210.3    $1,094.9

Source: SIGAR analysis of USAID data.
Note: Totals affected by rounding.

None of the 21 awards in our sample had expenditures that were audited under USAID’s memorandum of
understanding with DCAA. According to USAID and DCAA records, the last incurred cost audit for
each contractor in our sample was completed, on average, about 4 years after the period audited. For two
contractors, the last incurred cost audit was completed 7 years after the period audited. Consequently,
nearly $1.1 billion disbursed by USAID to the 13 U.S. contractors in our sample had not been subjected
to a DCAA incurred cost audit as of September 30, 2011. For example:

     •   Development Alternatives, Inc., had four contracts through which USAID had disbursed a total of
         $437.3 million during the period 2005-2011. The most recent incurred cost audit for this
         contractor was issued by DCAA in October 2002 for costs incurred during 1998. In 2006,
         USAID requested that DCAA conduct incurred cost audits of Development Alternatives, Inc., for
         1999, 2000, and 2001. The requested due date was July 31, 2010, but the audits had not been
         completed as of September 30, 2011.
     •   Since 2006, USAID has disbursed a total of $942.5 million under a contract for a joint venture
         between Louis Berger Group, Inc., and Black & Veatch. 14 The most recent incurred cost audit
         for Louis Berger Group, Inc., issued by DCAA in September 2005, was for 2000. The most
14
 The joint venture contract included 27 individual task orders as of September 30, 2011. USAID disbursed a total
of $942.5 million under all 27 task orders, of which $201.5 million was for the 5 task orders included in our sample.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                              Page 7
         recent incurred cost audit for Black & Veatch, issued by DCAA in September 2011, was for
         2004. No incurred cost audits have been conducted for the joint venture. 15
     •   A March 2009 award to the Central Asia Development Group, Inc., through which USAID
         disbursed $195.9 million, ended in November 2011 but had not been scheduled for an audit as of
         September 30, 2011. USAID did not schedule a DCAA audit for this contractor because it
         considered the company to be based outside the United States. Although the contractor’s
         headquarters and administrative offices are located in Singapore, it was incorporated in Maryland
         and has an office in Baltimore. Adding to the confusion was that the cooperative agreement
         incorporated standard provisions that required the contractor to submit annual audits in
         accordance with Office of Management and Budget (OMB) Circular A-133—a requirement that
         did not apply because the contractor was not a nonprofit organization. The agreement did not
         require that the contractor provide USAID with an incurred cost submission which would have
         triggered a request for a DCAA audit. Consequently, USAID officials did not arrange for the
         contractor to be audited.
     •   The most recent DCAA incurred cost audit for Emerging Markets Group, which received
         $55.6 million under a USAID contract during the period 2005-2011, was for 2001. That audit
         report was not issued until September 2008, more than 7 years after the period audited. Delays in
         performing financial audits may increase the difficulty of locating the documentation necessary to
         conduct those audits and postpone the identification and correction of internal control weaknesses
         and instances of noncompliance. Early communication of audit findings to those charged with
         governance or management may be important because of the relative significance and the
         urgency for corrective follow-up action. Delayed audits could also affect the potential recovery
         of unallowable costs identified through the audit process.
     •   The most recent incurred cost audit for Chemonics International, Inc., which had two awards in
         our sample through which USAID disbursed $36.9 million between 2003 and 2011, was for 2002.
         That audit was not completed by DCAA until 2006, 4 years after the period audited.


Lack of Staff and Funding Contribute to DCAA Audit Backlog and Delays

One factor that limited the timeliness of incurred cost audits of USAID contractors was DCAA’s backlog
of requested audits caused, in part, by lack of staff and resources. Although DCAA has a standard
performance goal of completing incurred cost audits within 12 months, the agency accomplished this goal
for only 10 percent of its audits during fiscal year 2010. In September 2010 testimony before the
Commission on Wartime Contracting in Iraq and Afghanistan, DCAA’s director stated that the agency
did not have the necessary staff to perform all the work it was asked to carry out.16 The Commission’s
final report to Congress in August 2011 stated that DCAA had accumulated a backlog of billions of
dollars of unaudited contingency-contract costs. According to that report, the unaudited backlog
totaled $558 billion, having risen from $406 billion in only 9 months. The Commission
recommended, among other things, that Congress increase DCAA’s staff and resources to improve
that agency’s ability to perform incurred cost audits. 17

15
   Some USAID funds provided under the contract with the Louis Berger Group Inc./Black & Veatch Joint Venture
were audited, but not through USAID’s memorandum of understanding with DCAA. Instead, USAID’s Kabul
Mission contracted with KPMG Afghanistan, Ltd., to conduct financial audits of costs incurred in Afghanistan under
the joint venture contract. As of September 30, 2011, KPMG had issued three reports for fiscal years 2007-2009
covering $18.6 million in local costs, of which $2.4 million was questioned.
16
   Testimony of Patrick J. Fitzgerald, Director, Defense Contract Audit Agency, before the Commission on Wartime
Contracting in Iraq and Afghanistan, The Contingency Acquisition Workforce: What Is Needed and How Do We Get
There?, September 16, 2010.
17
   Commission on Wartime Contracting in Iraq and Afghanistan’s Final Report to Congress, Transforming Wartime
Contracting: Controlling Costs, Reducing Risks, August 2011.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                           Page 8
Incurred cost audits of USAID contractors have not been requested in a timely manner because of
insufficient funding on the part of USAID. According to USAID’s Contract and Audit Support Division,
its budget for financing incurred cost audits by DCAA met less than 20 percent of the agency’s needs to
fund those audits during the last 3 fiscal years. Although USAID estimated that incurred cost audits
would require a total of $26 million during fiscal years 2009-2011, the agency budgeted only $4.4 million
(about 17 percent) for that purpose. Consequently, the Contract and Audit Support Division had to
prioritize a few contractor audits to request from DCAA and postpone the remainder. Figure 2 shows the
extent of USAID’s budget shortfall for funding DCAA incurred cost audits during fiscal years 2009-2011.


Figure 2: USAID Funding for DCAA Incurred Cost Audits,
Fiscal Years 2009-2011 (dollars in millions)


      $12.0                                            $10.8

      $10.0                           $8.9

       $8.0       $6.3

       $6.0

       $4.0                                                    $2.7

                         $0.8                $1.0
       $2.0

       $0.0
                                                               a
     (millions)   2009               2010               2011
                  Amount required to fund contractor audits
                  Amount budgeted by USAID for that purpose



Source: SIGAR analysis of USAID data.

a
 The amount received for 2011 through the agency’s normal budgeting process was
$1 million. A one-time re-allocation of $1.7 million due to savings from another
cost category brought the total received for 2011 to $2.7 million.

According to USAID’s Contract and Audit Support Division, funds for DCAA audits were limited
because they were allocated from USAID’s operating expense appropriation rather than its program
appropriations. 18 USAID’s operating expenses are typically about 10 percent of its program funds and
provide funding primarily for salaries of USAID employees. Agency policy requires that operating
expense funding be used to provide for the cost of doing business—defined as general activities required
or expected to be performed by any Federal agency irrespective of its mandate/program. 19 According to
that policy, all costs not specifically and directly relating to identified projects are mandated to be funded
from the operating expense account. USAID budget officials at USAID headquarters considered DCAA
audits to be an operating expense.




18
   Since 1976, USAID has received an annual appropriation for operating expenses in addition to separate
appropriations for its program funds. See GAO 03-1152R, USAID’s Operating Expense Account Does Not Fully
Reflect the Cost of Delivering Foreign Assistance, September 30, 2003.
19
   ADS Chapter 601.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                        Page 9
However, incurred cost audits performed by DCAA cover USAID funds that, for the most part, can be
directly tied to specific programs. According to DCAA’s guidance for contractors, both direct and
indirect costs should be accumulated by contract to determine their allowability. Further, financial audits
contracted by USAID missions are typically paid from program funds.


OMB Circular A-133 Audits Conducted as Required but Provided Limited Assurance That
Funds to Some U.S. Nonprofit Organizations Were Used as Intended for Specific Awards

According to USAID policy, awards to U.S. nonprofit organizations must include provisions requiring
them to contract with an independent, non-Federal auditor to perform an annual financial audit in
accordance with OMB Circular A-133 if they expend $500,000 or more in Federal funds within their
fiscal year. 20 OMB Circular A-133 audits must be conducted in accordance with auditing standards
approved by the Comptroller General of the United States and should include an examination of an
implementing partner’s financial records, financial statements, general management of its operations,
internal control systems, and expenditures of Federal assistance received during the audit period. They
are typically performed by an independent certified public accountant and encompass both financial and
compliance components. Per USAID policy, U.S.-based nonprofit organizations required to have an
OMB Circular A-133 audit performed must submit a copy of the audit report, along with a standard data
collection form, to a Federal Audit Clearinghouse within 9 months of the end of the period audited. The
audit must cover expenditures made by the entire organization unless the auditee expends Federal awards
under only one Federal program. In that case, the auditee may elect to have a program-specific audit
conducted in accordance with OMB Circular A-133.

Single audit reports done in accordance with OMB Circular A-133 are not intended to provide detailed
audit coverage of all the Federal awards or provide detailed financial information for individual awards.
While expenditures under a specific USAID award might be reviewed during an OMB Circular A-133
audit, the likelihood depends to a large extent on the amount of funding received under that award relative
to total Federal funding received. According to OMB Circular A-133, audit firms conducting annual
audits in compliance with that circular are required to identify each Federal award and determine whether
that award constitutes a major program. 21 Major programs are to receive more audit scrutiny than non-
major programs.

Our sample of 64 awards included 21 grants and cooperative agreements issued between 2002 and 2011
through which USAID had disbursed more than $168 million to 19 U.S.-based nonprofit organizations as
of September 30, 2011 (see table 3). All 19 U.S. nonprofit organizations in our sample had completed
and filed their annual OMB Circular A-133 audit reports, as required.




20
 ADS 591.3.1.1.
21
 According to OMB Circular A-133, auditors should use a risk-based approach to determine which Federal
programs are major programs. The risk-based approach should include consideration of current and prior audit
experience, oversight by Federal agencies, and inherent risk.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                         Page 10
Table 3: Grants and Cooperative Agreements to U.S. Nonprofit Organizations, as
of September 30, 2011 (dollars in millions)
U.S. nonprofit organization                                      Total    Total      Total
                                                            estimated obligated disbursed
                                                                value

Consortium For Elections and Political Process
                                                              $35.1     $35.1      $34.9
  Strengthening

International Fertilizer Development Center                   $32.5     $32.5      $32.5

The Asia Foundation                                           $20.1     $20.1      $19.9

New Mexico State University                                   $16.1     $16.1      $16.1

Volunteers for Economic Growth Alliance                       $15.0      $9.2       $9.0

Counterpart International, Inc.                               $45.0     $12.3       $8.0

Internews Network, Inc.                                        $7.9      $7.9       $7.9

University of Nebraska                                         $7.7      $7.7       $7.7

University of California-Davis                                 $6.8      $6.8       $5.1

CARE International                                             $4.8      $4.8       $4.8

Small Enterprise Assistance Funds                             $10.0      $4.0       $4.0

Wildlife Conservation Society                                  $8.0      $6.0       $3.5

Voice For Humanity                                             $3.0      $3.0       $3.0

Mercy Corps                                                    $2.9      $2.7       $2.7

Cornell International Institute for Food, Agriculture and
                                                               $2.5      $2.5       $2.4
  Development

Arzu, Inc.                                                     $2.3      $2.3       $2.3

International Foundation of Hope                               $4.0      $2.0       $2.0

Management Sciences for Health                                 $2.0      $2.0       $2.0

Catholic Relief Services                                        $.5       $.4        $.4

Total                                                        $226.2    $177.4     $168.2

Source: SIGAR analysis of USAID data.
Note: Totals affected by rounding.

Accountability Limitations of OMB Circular A-133 Audits for U.S. Nonprofit Organizations

Disbursements by USAID under the 21 grants and cooperative agreements in our sample constituted a
relatively small percentage of total Federal funding provided to the respective nonprofit organization.
Consequently, the awards were seldom considered major programs by the auditors conducting the
organizations’ OMB Circular A-133 audits, and auditors would have applied few if any tests toward
auditing expenditures under those USAID awards. A comparison of expenditures under the 21 USAID
awards in our sample to expenditures of all Federal funding sources for the 19 organizations during the
same period revealed that total expenditures under the 21 awards constituted less than one percent of total
Federal funds expended by those same organizations. For example:



SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                   Page 11
•    The Consortium for Elections and Political Process Strengthening expended $22 million during fiscal
     years 2003-2006 under a USAID cooperative agreement. During that same period, the organization
     expended a total of $376 million in Federal funding. The amount expended for the USAID award
     made up less than six percent of the organization’s total Federal funding for that year.
•    The Asia Foundation expended about $1.4 million during fiscal year 2009 under a USAID grant.
     During that same year, the organization expended a total of $53 million in Federal funding. The
     amount expended under the USAID grant made up less than three percent of the organization’s total
     Federal funding for that year.
•    New Mexico State University expended $16.1 million during fiscal years 2008-2011 under a USAID
     cooperative agreement.22 During those same years, the organization expended a total of $1.1 billion
     in Federal funding. The amount expended under the USAID award made up about one and a half
     percent of the organization’s total Federal funding for the same period.
•    CARE International expended $614,594 during fiscal years 2004-2005 under a USAID grant. During
     that same period, the organization expended a total of $443 million in Federal funding. The amount
     expended under the USAID grant made up just over one-tenth of one percent of the organization’s
     total Federal funding for those years.
•    The Cornell International Institute for Food, Agriculture and Development expended $2.4 million
     during fiscal years 2007-2010 under a USAID cooperative agreement. During those same years, the
     organization expended a total of $2.4 billion in Federal funding. The amount expended under the
     USAID award made up one-tenth of one percent of the organization’s total Federal funding for the
     same period.
USAID policy states that financial audits performed in accordance with OMB Circular A-133 do not limit
the authority of USAID or the OIG to conduct or arrange for additional audits, reviews, and evaluations.23
Similarly, OMB Circular A-133 states that its provisions neither limit the authority of Federal agencies to
conduct or arrange for additional audits (e.g., financial audits, performance audits, evaluations,
inspections, or reviews) nor authorize any audited organization to constrain Federal agencies from
carrying out additional audits.24 However, the circular allows Federal agencies to request an auditee to
have a particular Federal program audited as a major program in lieu of the agency conducting or
arranging for an additional audit.25

Although agreements for all 21 sampled awards included audit rights allowing USAID, or any duly
authorized representative, to have timely and unrestricted access to the organization’s financial records to
conduct an audit, USAID did not exercise those rights to obtain award-specific financial audits. Nor did
USAID request that any of the sampled awards be included in an OMB Circular A-133 audit as a major
program in lieu of conducting or arranging for an award-specific audit. As a result, more than $2 billion
in total USAID disbursements to U.S. nonprofit organizations were not subjected to audits of awards
made specifically for Afghanistan reconstruction.




22
   An award-specific financial audit of USAID’s cooperative agreement with New Mexico State University was
conducted by a private audit firm. The audit covered $10.5 million in total costs for the period March 3, 2008,
through September 30, 2010. The auditors questioned costs totaling $728,257. No costs under this award were
questioned by the A-133 auditors who covered the same period of expenditures.
23
   ADS 591.3.1.1.
24
   OMB Circular A-133, Subpart A, Section 215(a).
25
   OMB Circular A-133, Subpart A, Section 215(c).
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                            Page 12
USAID Relies on Multilateral Organizations to Audit Awards

USAID does not normally arrange for financial audits of funds provided multilateral organizations.
Instead, USAID generally relies on the organizations’ own audit policies and procedures. However,
USAID policy requires that each organization receiving USAID funds (1) confirm that its program will
be subject to an independent audit in accordance with its usual auditing procedures and (2) agree to
make audit reports available to USAID, along with other related information as may be reasonably
requested with respect to questions arising from the reports. 26

Our sample included two awards issued between 2002 and 2006 through which USAID had disbursed a
total of $977.6 million to two multilateral organizations as of September 30, 2011. Table 4 shows the
amount of USAID funding provided under the two awards.


Table 4: Grants to Multilateral Organizations, as of September 30, 2011 (dollars in
millions)
Multilateral organization                                          Total    Total      Total
                                                              estimated obligated disbursed
                                                                  value

World Bank                                                    $2,079.5    $1,072.0    $972.0

UN Development Program                                             $6.0      $5.6       $5.6

Total                                                         $2,085.5    $1,077.6    $977.6

Source: SIGAR analysis of USAID data.

One award is a grant agreement with the World Bank through which USAID makes contributions on
behalf of the U.S. government to ARTF. With expected U.S. contributions of more than $2 billion over
the life of the fund, the ARTF grant constitutes one of USAID’s largest awards for Afghanistan
reconstruction. As of September 30, 2011, USAID had disbursed $972.0 million to the fund.

USAID’s grant agreement with the World Bank states that the World Bank would require the Afghan
government to audit ARTF funds annually and submit related audit reports to the World Bank within
6 months of the end of the fiscal year audited. Although the agreement does not require the World Bank
to provide USAID with copies of those audit reports upon request, as required by USAID policy, the
Mission has obtained audit reports of ARTF funds conducted by the Afghan government’s Control and
Audit Office (CAO). As Afghanistan’s supreme audit institution, CAO is responsible for auditing the
records and accounts of all ARTF expenditures, with technical assistance from the international auditing
firm PKF International. In conducting these audits, CAO examines whether Afghan government
expenditures are eligible for ARTF funding. According to its agreement with the World Bank, the
Afghan government must reimburse ineligible ARTF expenditures to the trust fund. As noted in our prior
audit report on ARTF, although CAO audits have identified millions of dollars in ineligible expenditures,
the findings resulted in a substitution of the ineligible expenditures for an equal amount of eligible
expenditures, rather than the Afghan government reimbursing the funds to ARTF. 27 Further, although




26
   See Sections 9 and 10 of USAID’s Standard Provisions for Cost-type Awards to Public International
Organizations, a mandatory reference for ADS Chapter 308.
27
   SIGAR Audit-11-14, The World Bank and the Afghan Government Have Established Mechanisms to Monitor and
Account for Funds Contributed to the Afghanistan Reconstruction Trust Fund, but Some Limitations and Challenges
Should Be Addressed (July 22, 2011).
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                       Page 13
CAO is responsible for auditing one of USAID’s largest awards, we have called CAO's lack of
organizational, external, and personal independence into question. 28

The second award is a grant agreement valued at $5.6 million with the UN Development Program
(UNDP), valued at $5.6 million. It was made in March 2006 and ended in December 2008. USAID did
not have financial audits conducted of this award because the grant agreement did not require it. Instead,
the grant agreement included a confirmation by UNDP that the award would be audited by applying
established procedures under appropriate provisions of the financial regulations and rules of the United
Nations. However, the USAID official responsible for monitoring the award did not know whether
UNDP had audited the award. Although USAID is entitled to access audit reports issued by a UN
internal oversight entity, the USAID official indicated that USAID had neither requested nor received an
audit report for this award. The USAID official subsequently requested a copy of audits of the award
from UNDP, but received no response.


Most Awards to Foreign Entities Were Conducted as Required

USAID also awarded funds to several Afghan government entities and other non-U.S.-based
implementing partners to carry out reconstruction-related activities. Of the three grants to Afghan
government entities, one audit was conducted as required but did not cover the last 6 months of the award,
no funds were disbursed under the second—and largest—award, and the third award was not audited in
accordance with USAID requirements because officials refused access to records. Awards to non-U.S
nonprofit organizations were conducted as required, and audits of non-U.S. for-profit companies were not
required because these awards were fixed-price contracts, which do not require annual financial audits.

Funds Awarded to Afghan Government Entities Generally Met Audit Requirements, Although One Entity
Refused Audit Firm’s Access to Its Records

USAID typically awards funds to host government entities through bilateral grants documented by
implementation letters pursuant to Strategic Objective Grant Agreements signed by USAID and host
country officials. 29 Such agreements include standard provisions requiring the host government to
maintain records pertaining to grant funds in accordance with established accounting principles.

According to USAID policy, financial audit requirements for awards to host government entities are
similar to those for non-U.S.-based nonprofit organizations; the awards are subject to USAID’s
Guidelines for Financial Audits Contracted by Foreign Recipients (Guidelines). 30 The principal
difference is that host government entities may have audits performed by its supreme audit institution,
instead of by private audit firms. These government audit institutions may audit USAID funds provided
to host government entities only with OIG approval. As noted previously, the Afghan government’s
CAO serves as its supreme audit institution but had not been approved by USAID’s OIG to conduct
audits of USAID-provided funds at the time of our audit.

Our audit sample included three grants awarded to three Afghan government entities between 2007 and
2011. USAID had not disbursed funds for one grant as of September 30, 2011. For the remaining two
grants, USAID had disbursed a total of $2.9 million to two Afghan government entities as of September
30, 2011. Table 5 shows the amount of USAID funding provided under the three awards.



28
   SIGAR Audit-10-8, Afghanistan’s Control and Audit Office Requires Operational and Budgetary Independence,
Enhanced Authority, and Focused International Assistance to Effectively Prevent and Detect Corruption
(April 9, 2010).
29
   ADS 350.3.1.
30
   ADS 591.3.2.1.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                      Page 14
Table 5: Grants to Afghan Government Entitites, as of September 30, 2011
(dollars in millions)
Afghan government entity                                      Total    Total      Total
                                                         estimated obligated disbursed
                                                             value

Ministry of Finance                                          $2.0      $1.7        $1.7

Programe-e-Tahkem Solh (Commission for Peace and
                                                             $2.7      $1.3        $1.2
  Reconciliation)

Ministry of Agriculture, Irrigation, and Livestock          $85.0        $0         $0

Total                                                       $89.7      $3.0        $2.9

Source: SIGAR analysis of USAID data.

A review of USAID’s award files found that all three grants included standard language requiring the
Afghan government entities to maintain books and records relating to grant funds, as well as provide
USAID, or its representatives, with rights to audit those records. As of September 30, 2011, $1 million of
the $2.9 million disbursed had been audited, as required.

•   USAID disbursed $1.7 million through one grant to the Afghan Ministry of Finance. An
    implementation letter signed in June 2010 provided funding for the salaries of certain Afghan
    government officials from February 1, 2010 to March 20, 2011. Expenditures of $1 million made
    under that grant during the period June 6, 2010 to September 30, 2010 were audited by a private
    Afghan audit firm, resulting in $356,469 in questioned costs and the identification of one significant
    internal control deficiency and one material instance of noncompliance with local tax laws. However,
    the audit did not cover the entire period of the grant. Consequently, another audit will be necessary to
    cover expenditures that were made during the last 6 months of the award.
•   The second grant, with disbursements of $1.2 million, was approved by USAID in July 2007 to
    provide operating funds to the Afghan government’s Program-e Tahkem-e-Solh Commission, an
    independent government body created by the Afghan President to facilitate peace and reconciliation
    between the government and ex-combatants. USAID arranged for a financial audit of the award by a
    private audit firm, but the audit was never conducted because commission officials were unwilling to
    provide access to their records. USAID files show that commission officials refused two separate
    attempts to audit their records by agency-contracted audit firms, but eventually consented to a
    financial review by a team that included only USAID Afghan employees and an auditor from the
    Afghan CAO. The financial review questioned costs of $11,132, an amount later reduced to $8,462
    after Afghan officials provided supporting documentation. However, a full financial audit in
    accordance with the USAID Guidelines has not been conducted.
•   The third grant consisted of an implementation letter signed in July 2010 to establish an agricultural
    development fund for loans and grants to small commercial farmers. According to the letter, grant
    proceeds would be used solely as capital for loans and grants. USAID planned to provide $85 million
    directly to the Afghan Ministry of Agriculture, Irrigation, and Livestock, and $15 million to a
    contractor to initiate and manage the new fund. The implementation letter required the Afghan
    government to have annual audits conducted by the CAO or an independent auditor in accordance
    with USAID’s Guidelines. The audits, to be completed no later than 9 months after the end of the
    Afghan government’s fiscal year, were to determine whether the receipt and expenditure of funds
    provided under the implementation letter were in accordance with generally accepted accounting
    principles and whether the Afghan government had complied with the terms of the implementation




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                    Page 15
     letter. As of September 30, 2011, none of the $85 million had been disbursed to the Ministry, so a
     financial audit of that portion of the grant was not yet required. 31

Audits Were Conducted as Required for Non-U.S.-based Nonprofit Organizations

USAID policy states that agreements with foreign (non-U.S.-based) nonprofit organizations must include
standard provisions requiring them to contract with independent auditors, acceptable to the OIG, to
perform financial audits of the funds provided through USAID awards. 32 The contracted audits must be
performed annually in accordance with USAID’s Guidelines whenever a recipient expends $300,000 or
more in USAID funds during its fiscal year. According to the Guidelines, financial audits of the funds
provided by USAID must be performed in accordance with U.S. Government Auditing Standards, or other
approved standards where applicable. The specific objectives of a recipient-contracted audit are to
express an opinion on the fund accountability statement, evaluate the recipient's internal controls and
identify significant deficiencies, perform tests for compliance with agreement terms and applicable laws
and regulations, review indirect cost rates, and determine if the recipient has taken adequate corrective
action on prior audit report recommendations.33

According to agency policy, USAID officials must ensure that the responsible OIG office receives
recipient-contracted audit reports for desk review within 9 months after the end of the fiscal year in which
the expenditures were incurred.34 According to the Guidelines, even when a recipient-contracted audit is
not required, if USAID determines that an audit must be performed, the audit report must be submitted to
the OIG for review and issuance. Further, the OIG reserves the right to conduct audits using its own staff,
notwithstanding acceptable audits performed by other auditors, in cases where special accountability
needs are identified.

Our sample included two cooperative agreements issued in 2008 through which USAID had disbursed
$28.5 million to two different non-U.S.-based nonprofit organizations as of September 30, 2011
(see table 6).


Table 6: Cooperative Agreements to Non U.S.-based Nonprofit Organizations, as of
September 30, 2011 (dollars in millions)
Non-U.S.-based nonprofit organization                               Total        Total         Total
                                                               estimated     obligated    disbursed
                                                                   value

American University of Afghanistan                                $42.1        $24.8         $22.7

Turquoise Mountain Trust                                          $10.6          $7.4         $5.8

Total                                                             $52.7        $32.2         $28.5

Source: SIGAR analysis of USAID data..




31
   As of June 20, 2011, the contractor managing the fund, Development Alternatives International, Inc., had
disbursed about $4.5 million of the $15 million. USAID officials did not include those disbursements in their fiscal
year 2011 audit plan because the funds had been provided to a U.S. contractor which should eventually receive an
incurred cost audit by DCAA.
32
   ADS 591.3.2.1
33
   The fund accountability statement is the basic financial statement to be audited that presents the recipient's
revenues, costs incurred, cash balance of funds provided to the recipient by USAID, and commodities directly
procured by USAID for the recipient's use.
34
   ADS 591.3.2.1d.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                            Page 16
Financial audits were conducted, as required, of expenditures under both USAID awards. An audit of
$9.5 million of USAID funds expended by the American University of Afghanistan during 2008-2009
resulted in questioned costs of $685,643 of which USAID agreed to recover $116,273. Two annual audits
covering $2.9 million of USAID funds expended by Turquoise Mountain Trust between 2008 and 2009
resulted in questioned costs of $17,781, all of which USAID agreed to recover.

Fixed-price Awards to Non-U.S. Contractors Do Not Require Annual Financial Audits

Our audit sample also included three fixed-price awards issued between 2004 and 2007 through which
USAID had disbursed $65.7 million to three non-U.S.-based contractors as of September 30, 2011. 35
Missions must assess risk at least annually to determine when financial audits of foreign (non-U.S.-based)
contractors are required. 36 However, USAID policy also states that fixed-price contracts are not subject
to an annual audit requirement.37


Financial Audits of Funds Provided to Other U.S. Agencies Not Conducted because Audits
Were Not Required or Audit Requirements Were Vague

USAID normally implements programs through contracts and grants with private-sector entities and
individuals. Under appropriate circumstances, however, USAID may engage other Federal agencies to
help implement its programs. Section 632(b) of the Foreign Assistance Act of 1961 allows USAID to
“buy” the services of other Federal agencies. According to ADS 306, USAID may use several
interagency agreements for this purpose, including Participating Agency Service Agreements (PASA) and
Participating Agency Program Agreements (PAPA). Under a PASA, the participating agency is expected
to supply USAID with personnel that have the requisite expertise called for by the agreement.
Participating agency personnel working under a PASA receive personnel support from their own agency,
but work in USAID space or under USAID supervision. In contrast, under a PAPA, a participating
agency normally performs work autonomously from USAID—similar to a contractor.

According to USAID policy, it is accountable for the funds it obligates under the Foreign Assistance Act
and must provide the necessary oversight and coordination for the services or program it finances.38
Although USAID does not typically audit another U.S. agency, USAID may require it to include audit
clauses in agreements that it enters into with contractors, grantees, and cooperative agreement recipients.
Normally, PASAs do not include such audit clauses because the participating agency is not likely to make
awards of a size that would warrant audits. However, ADS 306 requires that PAPAs include standard
provisions for audit requirements for funds transferred by the agreement, including funds to contractors or
grantees.

Our sample included 12 PASAs, PAPAs, and other interagency agreements issued pursuant to section
632(b) between 2003 and 2010 through which USAID had disbursed $88.2 million to seven U.S.
government agencies as of September 30, 2011 (see table 7).




35
   The three firms were Afghanistan Management Group ($35 million), Descon Holdings, Ltd., ($27 million), and
Land Bridge International, LLC, ($3.7 million).
36
   ADS 591.3.2.1(f).
37
   ADS 591.3.2.1(g).
38
   ADS 306.3.2.21.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                        Page 17
Table 7: Awards to Other U.S. Government Agencies, as of September 30, 2011
(dollars in millions)
U.S. government agency                                                 Total    Total              Total
                                                                  estimated obligated         disbursed
                                                                      value

U.S. Army Corps of Engineers                                         $50.2       $47.1           $45.2

Department of State                                                  $29.5       $29.5           $29.5

Federal Aviation Authority                                            $6.4        $5.4             $5.2

U.S. Geological Survey                                                $5.0        $5.0             $5.0

U.S. Institute of Peace                                               $2.1        $2.1             $2.1

Department of Agriculture                                             $1.0         $.9              $.9

Defense Contract Audit Agency                                         $0.5        $0.5             $0.3

Total                                                                $94.7       $90.5           $88.2

Source: SIGAR analysis of USAID data.

Six PASAs and another agreement for commercial services did not require a financial audit. Of the four
PAPAs in the sample, three agreements were with the U.S. Army Corps of Engineers and one was with
the Department of State. As of September 30, 2011, USAID had transferred a total of $31.6 million under
those agreements to fund activities that included the construction of roads, university classrooms, and
refurbishment of schools and clinics. Each PAPA and another agreement with the U.S. Institute for
Peace 39 contained vague language regarding financial audit requirements, including language from
USAID’s standard provisions for such agreements that provided audit rights to both participating
agencies, but was unclear regarding if and by whom financial audits should be conducted. The Inspector
General Act does not include specific audit requirements for interagency agreements or for contractors
and grantees financed by funds provided through such agreements. As a result, neither USAID nor the
participating agencies arranged for financial audits of funds provided under the agreements.


Delays in Close-out Audits Limit Assurance Regarding Proper Use and Disposition of
Funds and Property

Over two-thirds of USAID’s 305 major awards for Afghanistan reconstruction had expired as of
September 30, 2011, but the majority of those expired awards were not closed out within suggested
timeframes. Consequently, USAID lacked assurance as to the proper use and final disposition of funds
and property provided under the expired awards, many of which carried large balances of unliquidated
obligations and unpaid cost share. 40

USAID’s close-out procedures for awards are designed to help ensure that the disposition of all funds, as
well as non-expendable property, is properly authorized and documented. An important component of the
close-out process is the use of close-out audits. According to USAID policy, field missions have the
responsibility for ensuring administrative closeout of their own awards, as well as those transferred to the
39
  The U.S. Institute for Peace is a Congressionally-funded independent Federal institution administered by a
bipartisan board of directors appointed by the U.S. President and confirmed by the Senate and charged with
preventing and resolving violent international conflict.
40
  Cost share refers to the resources, including cash and in-kind, that a recipient contributes to the total cost of an
agreement. Cost sharing becomes a condition of an award when it is part of the approved award budget. Cost
sharing must be verifiable from the recipient's records, is subject to Federal post-award requirements, and can be
audited.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                                 Page 18
field, and the deobligation of residual balances.41 The policy states that field mission contracting and
assistance officers should take the lead role in ensuring that such closeouts are accomplished. Further,
agency guidance indicates that contracting and assistance officers should initiate the administrative
closeout of an award as soon as possible after completion of an award, but no later than 3 months after
completion.

Per USAID policy, obligated funds must be deobligated when a determination is made that the funds are
no longer needed for the purposes for which they were obligated. 42 Obligation managers must
continuously monitor unexpended obligated balances and request that excess or unneeded funds are
deobligated. In field missions, obligation managers should provide confirmation to the mission controller
that residual funds are available for deobligation.

According to USAID’s audit policy, a “close-out” financial audit must be performed for all awards with
cumulative expenditures in excess of $500,000.43 As a general rule, annual incurred cost audits fulfill the
close-out audit requirement for U.S. and foreign for-profit organizations. Similarly, OMB Circular A-133
annual audits fulfill the close-out audit requirement for U.S. nonprofit organizations, and annual audits in
accordance with USAID’s Guidelines fulfill the close-out audit requirement for foreign nonprofit
organizations. In any case, the contracting or grant officer may not proceed with the close-out process
until USAID has taken final action on all audit recommendations. Thus, delays in conducting close-
out audits contribute to delays in closing out expired awards and deobligating residual funds. Further,
close-out audits help determine whether recipients provided cost sharing contributions in accordance with
the terms of the agreement. If a recipient does not meet its cost sharing requirement, those costs may be
questioned. 44

More than $130 Million Remains in Unexpended Obligations and Unpaid Cost Share from Expired but
Unclosed Awards

As of September 30, 2011, of the 64 sampled awards, 41 had expired but only 13 had been closed out. Of
the 28 expired but unclosed awards, 16 included obligated but unexpended balances totaling
$16.8 million. The majority of those unexpended funds ($15.7 million) were obligated under 8 expired
awards to U.S. contractors. Two of the expired but unclosed awards had unpaid cost share totaling
$1.5 million.

Based on these findings, we expanded the scope of our testing to include the entire universe of USAID’s
305 major awards for Afghanistan reconstruction. We found that, of the 205 awards that had expired as
of September 30, 2011, 90 had unspent obligations totaling $103 million. Although 72 awards, with a
total of $96 million in unspent obligations, expired less than 3 years prior to September 30, 2011,
18 awards, with a total of $7 million in unspent obligations, had expired 3 or more years earlier. The
oldest expired award with unspent obligations ended in 2004 and still carried a balance of $335,626 as of
September 30, 2011, nearly 7 years later. In addition to expired awards’ unspent obligations, we
identified 13 expired awards with unpaid cost share totaling $27.3 million as of September 30, 2011.




41
   ADS 621.3.10 and Contract Information Bulletin 90-12, Guidance for Missions – Closing out Contracts, Grants
and Cooperative Agreements.
42
   ADS 621.3.9.
43
   ADS 591.3.3.2.
44
   Section 3.4 of USAID’s Guidelines for Financial Audits Contracted by Foreign Recipients.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                        Page 19
USAID officials in Afghanistan were aware of the large number of expired but unclosed awards in its
portfolio and have taken steps to close out those awards and reprogram unused funds. 45 During a risk
assessment conducted by USAID’s Mission for Afghanistan in conjunction with the agency’s annual
Federal Managers Financial Integrity Act review for fiscal year 2011, contracting officials acknowledged
that acquisition and assistance instruments were not being closed out in a timely manner due to
understaffing. The same officials indicated that they were taking steps to address this weakness with the
creation of a contract management team.

A reason that expired awards were not being closed out in a timely manner was because of the delays in
conducting incurred cost audits of U.S. contractors. USAID officials did not arrange for close-out audits
of the expired contracts in our sample because they assumed that the close-out requirement would be met
through annual DCAA incurred cost audits. However, as previously discussed, none of the U.S.
contractors in our sample had received an incurred cost audit from DCAA covering the period of
expenditures under their respective awards.

Close-out audits can help USAID’s contracting and grant officers expeditiously close out expired awards
by providing assurance as to the proper use and disposition of funds, including required cost share.
Unlike most Federal agencies, USAID has authority to re-obligate funds that it identifies as no longer
needed under an original obligation, but the reobligation must take place within a specified period of
time. 46 Further, most USAID contracts and grant agreements only require recipients to retain financial
records for 3 years, unless any litigation, claim, or audit is started before the expiration of the 3-year
period. Consequently, long delays in starting a close-out audit could result in the loss of accounting
records and other supporting documentation, as well as delays in recovering unliquidated obligations and
unpaid cost share. As of September 30, 2011, USAID had 90 expired awards with unexpended
obligations totaling $103 million and 13 expired awards with unpaid cost share totaling $27.3 million.


USAID Lacked Transparency over Audits of Sub-recipients

In most circumstances, sub-recipients that receive USAID funds through an implementing partner are
subject to the same financial audit requirements. Awards usually include “flow-down” clauses
requiring sub-recipients to meet USAID audit requirements and to maintain their books and records
for a specified period of time so that they may be audited. For example, ADS 591 states that
implementing partners must ensure that their U.S. nonprofit sub-recipients expending $500,000 or more
in Federal funds during their fiscal year are audited in accordance with OMB Circular A-133. Similarly,
they must also ensure that their foreign nonprofit sub-recipients adhere to USAID’s standard provisions
for non-U.S. nongovernmental grantees, which require annual audits in accordance with the USAID
Guidelines for foreign nonprofit organizations receiving $300,000 or more in USAID funds during their
fiscal year. Further, the FAR requires contractors receiving Federal funds to insert a clause in sub-
contracts containing all the audit terms to which the prime contractors are subject.

According to USAID audit policy, USAID’s legal relationship is with the implementing partner or prime.
Therefore, USAID is not responsible for directly monitoring sub-recipients unless otherwise required by

45
   In April 2011, an internal memo from the mission’s financial management office to the mission’s contracting
office a listed the awards that had expired as of February 28, 2011. The list included 53 expired awards with un-
liquidated obligations totaling $36.2 million. According to the memo, those amounts could be reprogrammed and
put to better use for other activities. The memo requested that mission contracting officials “initiate close-out
actions where appropriate and coordinate with [the mission financial management office] on the de-obligation of
funds and resolution of audit or other financial issues, if any.” A similar list, dated October 13, 2011, indicated that
USAID officials had deobligated about $6 million from expired awards, but 47 expired awards with a total of
$30.1 million in unexpended obligations had not been closed.
46
   According to ADS 621.3.11, USAID appropriated funds that are obligated within their initial period of availability
will be available for 4 additional years for deobligation and reobligation. At the end of the 4 years, the funds
“expire” and are no longer available for new obligations.
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                                Page 20
law. Per the policy, an independent auditor performing a review of the prime must determine whether it
has met the audit and monitoring requirements pertaining to sub-recipients. However, USAID retains the
right to request an audit of a sub-recipient if the agency determines that the potential for waste or
fraud exists.

USAID officials have no systematic way of determining whether appropriate flow-down clauses are
included in sub-recipient contracts and agreements, or whether the sub-recipients are audited, as required.
A primary reason is USAID’s reliance on primes to ensure compliance relating to sub-recipients. Also,
USAID’s accounting system does not track the level of funds passed through primes to sub-recipients.
For example, USAID program files in Kabul indicated that one of USAID’s major contractors for
Afghanistan reconstruction, Louis Berger Group, Inc., was not obtaining required annual incurred cost
audits of its subcontractors. As a result, at least three of its subcontracts, valued at $24 million, had not
been audited, as required. This increased the risk that unallowable costs may be charged to USAID
through the prime contractor.

Although an exact percentage was not available, USAID contracting and grant officials whom we
interviewed suggested that up to 50 percent of USAID funding provided to implementing partners for
Afghanistan reconstruction may be passed to sub-recipients. Consequently, as much as half of the
$9.5 billion in USAID disbursements under awards for Afghanistan reconstruction may have gone to sub-
recipients for which USAID has little visibility or accountability in terms of financial audits.


CONCLUSIONS

Since 2002, USAID has provided nearly $9.5 billion in Afghanistan reconstruction funds to its
implementing partners in Afghanistan. Financial audits of funds expended under these awards provide
USAID with assurance that the funds were properly accounted for and used as intended. This assurance
is critical because the restrictive security environment in Afghanistan makes it difficult to monitor
program activities. However, for a number of reasons many awards have not been audited.

Delays in annual incurred cost audits of U.S. contractors, through which USAID provides more than half
its funding for Afghanistan reconstruction, are a primary concern. DCAA is experiencing a large backlog
and USAID’s funding for audits of contractors has been constrained, resulting in audits that are not
performed until a number of years after the period being audited. In addition, Office of Management and
Budget Circular A-133 audits of U.S. nonprofit organizations provided limited accountability over funds
used specifically for activities in Afghanistan. Further, USAID has not used financial audits to close out
expired awards, leaving more than $130 million in unexpended obligations and unpaid cost sharing on its
books. Finally, USAID lacks transparency with regard to financial audits of expenditures under sub-
awards. As a result, USAID has limited assurance that billions of dollars expended for Afghanistan
reconstruction since 2002 have been properly accounted for or used as intended.


RECOMMENDATIONS

To improve financial audit coverage of U.S.-based contractors, we recommend that the Administrator of
USAID take the following action:

    1. Increase the quantity and timeliness of incurred cost audits of U.S. contractors by (a) using
       appropriations for program funds to help finance those audits and (b) contracting with private
       audit firms for those instances in which DCAA cannot respond to audit requests.
To provide better accountability over funds provided to contractors and grantees for Afghanistan
reconstruction, we recommend that the Administrator of USAID take the following actions:



SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                     Page 21
    2. Develop a system to identify and prioritize awards to U.S. nonprofit organizations to determine
       whether USAID should (a) request that the awards be audited as major programs by the
       organizations’ OMB Circular A-133 auditors or (b) contract for award-specific financial audits of
       those awards.
    3. Expedite close-out audits for expired awards, especially for (a) the 90 expired awards with
       $103 million in unexpended obligations and (b) the 13 expired awards with $27.3 million in
       unpaid cost share as of September 30, 2011.
    4. Amend USAID’s awards for Afghanistan reconstruction to include a requirement that prime
       recipients develop and submit to the respective contract or agreement officer a plan for ensuring
       that financial audits of expenditures under sub-awards are conducted, as required.


COMMENTS

In commenting on a draft of this report, USAID found the report informative and objective and noted that
it fully recognizes the need to conduct more financial audits in a timely manner to ensure accountability
for the funds channeled by USAID through its implementing partners. Overall, USAID generally
concurred with the recommendations and noted that it has taken some steps to address them. USAID also
provided some technical comments, which we incorporated into the final report, as appropriate. These
comments are reproduced in appendix III.

In response to recommendation one, USAID acknowledged that it has experienced significant delays with
DCAA audits and described steps it has taken to increase their timeliness. USAID stated that it will
consider contracting with private audit firms to conduct the audits in a more timely manner, but noted that
the lack of qualified audit firms in Afghanistan would require hiring U.S. and international audit firms
that will likely increase audit costs. While USAID also stated that its Kabul Mission was already using
program funds to finance audit costs, we encourage USAID headquarters to do the same when contracting
for incurred cost audits of U.S. contractors doing work in Afghanistan.

In response to recommendation two, USAID said that it does not have authority to direct a U.S. nonprofit
organization’s auditor to reclassify a USAID project as a major program. However, as we note in the
report, Section 215(c) of OMB Circular A-133 specifically allows Federal agencies the option of
requesting that particular programs be audited as major programs in lieu of conducting or arranging for
additional audits. We encourage USAID to take advantage of this provision. In regard to the second part
of the recommendation, USIAD noted that its Kabul Mission has already identified and prioritized
numerous awards for award-specific audits in developing its fiscal year 2012 Audit Inventory and Audit
Plan.

In response to recommendation three, USAID acknowledged the need to audit all awards in a more timely
fashion and is already pursuing more aggressive means to audit and close out awards. USAID stated that
it will take action on unexpended obligations, and will further review awards and take appropriate
recovery action when cost share requirements were not met.

In response to recommendation four, USAID stated that it will request that its Office of Acquisition and
Assistance in Washington, D.C., review the standard audit language required for all awards, and will
notify SIGAR of the review results.




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                   Page 22
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of our review of financial audits of major USAID contracts, grants, and
other awards for Afghanistan reconstruction. This report identifies the universe of awards that USAID
has funded for Afghanistan reconstruction since 2002 and assesses the extent to which financial audit
requirements had been met for various types of recipients and awards, including expired awards and sub-
awards. The period of our review was from February 1, 2002 to September 30, 2011.

To identify the universe of awards that USAID has funded for Afghanistan reconstruction since 2002, we
obtained a listing of major grants and contracts from USAID. The listing was from a monthly report
entitled Status of Major Grants and Contracts issued by USAID’s Mission for Afghanistan’s Office of
Financial Management as of September 30, 2011. The report indicated that it included all awards over
$100,000 and excluded personal service contracts. The report included data fields for each award that
identified the technical office responsible for the award, award number, program area, latest modification
number, name of contractor/recipient, program name, close-out status, start and end dates, agreement
type, and name of the contract/agreement officer’s technical representative. In addition, the report
displayed financial information for each award that included total estimated cost, required and actual cost
share, obligated amount, mortgage balance (total estimated cost minus obligated amount), disbursement
per Phoenix (USAID’s accounting system), undisbursed balance, quarterly accruals, total accrued
expenses, life of project in months, number of months elapsed, pipeline amount (obligated amount minus
total accrued expenses), average expenditures per month, and remaining life of project in months. We
analyzed the data by sorting it several different ways, grouping the awards by recipient to determine the
top ten recipients in terms of disbursements received, and separating expired awards from active, ongoing
awards.

We performed data reliability tests to determine the accuracy and completeness of the computer-
processed data in the report by comparing dates and financial balances for the random sample of 64
awards to physical records kept in offices at USAID’s Mission for Afghanistan in Kabul, Afghanistan.
We found only a few minor discrepancies which we submitted to USAID for correction. We also
compared disbursement balances for all awards listed in the report to accounting data downloaded from
USAID’s Phoenix system by our forensic audit team in Washington, D.C. We were able to reconcile the
total disbursements in the report with data from USAID’s accounting system to within 97.4 percent
accuracy. We determined that the data were sufficiently reliable for purposes of the audit objectives.

We assessed the internal controls of USAID’s Bureau for Management, Office of Acquisition and
Assistance, Contract Audit and Support Division regarding the receipt of incurred-cost submissions from
U.S.-based contractors, risk assessments to determine whether to request DCAA incurred-cost audits, and
the request and tracking of scheduled audits. We assessed USAID/Afghanistan’s Office of Financial
Management’s internal controls regarding the preparation of annual award inventories and the execution
of annual audit plans for recipient-contracted and agency-contracted audits. We also assessed
USAID/Afghanistan’s Office of Acquisition and Assistance’s internal controls regarding the
completeness and accuracy of physical and electronic project files.

To determine the extent to which financial audits had been performed for USAID awards for Afghanistan
reconstruction, we selected a statistically valid random sample of 64 awards issued between
February 1, 2002 and September 30, 2011, stratified by type of award, to ensure that representative
samples from each category of award—contracts, grants, cooperative agreements, and interagency
agreements—were selected. As of September 30, 2011, the 64 sampled awards had received almost
$2.5 billion (26 percent of funding for all 305 major awards). The sampled awards included 24 contracts
or task orders to U.S. and foreign contractors, 23 grants and cooperative agreements to U.S. and foreign
nonprofit organizations, 12 interagency agreements with other U.S. government agencies, 3 awards to
Afghan government entities, and 2 awards to multilateral organizations. Of the 64 sampled awards, 41
had expired as of September 30, 2011, and the other 23 were ongoing. Table 8 shows a summary of the
64 awards selected for the sample.

SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                   Page 23
Table I: 64 Awards Selected for Audit Sample, as of September 30, 2011 (dollars in
millions)
Type of recipient                                  Total     Total       Total        Total
                                                 awards estimated    obligated   disbursed
                                                            value

U.S.-based contractors                              21     $1,569     $1,210       $1,095

U.S.-based nonprofit organizations                  21       $226      $177         $168

Multilateral organizations                           2     $2,085     $1,078        $978

Afghan government entities                           3        $90         $3           $3

Non-U.S.-based nonprofit organizations               2        $53       $32          $29

Non-U.S.-based contractors                           3        $66       $66          $66

Other U.S. government agencies                      12        $95       $91          $88

Total                                               64     $8,183     $2,657       $2,426

Source: SIGAR analysis of USAID data.
Note: Totals affected by rounding.

To determine financial audit requirements, we reviewed laws, regulations, policies, standard operating
procedures, and other guidance relating to financial audit requirements of recipients of USAID funds. We
reviewed USAID policy regarding financial audits of recipients in Automated Directives System (ADS)
Chapter 591, Financial Audits of USAID Contractors, Recipients, and Host Government Entities. For
awards to U.S. contractors, we reviewed relevant sections of the Federal Acquisition Regulation, USAID
Acquisition Regulation, and ADS 301-Responsibility for Procurement. For awards to U.S. nonprofit
organizations, we reviewed Office of Management and Budget’s Circular A-133, USAID’s ADS 303-
Grants & Coop Agreements to NGOs, and 22 CFR § 226.26 - Non-Federal audits. For awards to other
U.S. government agencies, we reviewed ADS Chapter 306 - Interagency Agreements, and Section 632 of
the Foreign Assistance Act of 1961 (P.L. 87-195). For awards to Afghan government entities, we
reviewed ADS 305 – Host Country Contracting, and ADS 350 - Grants to Foreign Governments. For
awards to multilateral organizations, we reviewed ADS Chapter 308 - Awards to Public International
Organizations. To determine close-out audit requirements, we reviewed ADS Chapter 621 – Obligations,
USAID’s Guidance on Closeout Procedures for A&A Awards, and Contract Information Bulletin 90-12,
Guidance for AID Missions – Closing Out Contracts, Grants and Cooperative Agreements. To determine
financial audit requirements regarding sub-awards, we reviewed applicable sections from each of the
sources mentioned above, as well as 22 CFR § 226.5 – Subawards. Based on this research, we prepared a
chart of the various financial audit requirements which is presented in Appendix II.

To determine whether financial audits of USAID funds provided to contractors, grantees, and other
entities for Afghanistan had been conducted as required for ongoing, expired, and subawards, we
searched for evidence of audits in the program files for each of the 64 awards in our sample and traced
each sampled award through USAID’s annual audit planning process to verify whether and when
financial audits had been conducted. We reviewed annual award inventories and annual audit plans
prepared by USAID’s Kabul Mission to determine why financial audits were not conducted. For U.S.
contractors, we obtained USAID’s database of the Defense Contract Audit Agency (DCAA) audits and
reconciled that information with data provided by DCAA to determine whether DCAA had conducted
incurred cost audits of the contractors in our sample. For U.S. nonprofit organizations, we verified
whether those organizations had completed and submitted audits in accordance with the Office of
Management and Budget’s Circular A-133 by accessing the Federal Audit Clearinghouse database on the
internet and downloading data collection forms for the organizations in our sample. We also searched the
USAID Office of Inspector General’s semiannual reports to congress and quarterly Pakistan and

SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                Page 24
Afghanistan booklet available on its website to determine whether any financial audits had been
conducted of the awards in our sample.

To determine the extent to which close-out audits were conducted of expired awards, we reviewed the 41
expired awards in our sample of 64 to confirm whether they had received a close-out audit, or an annual
incurred cost audit that met USAID’s close-out audit requirements. For the 41 expired awards in our
sample, we also determined how long they had been expired relative to our established cutoff date of
September 30, 2011. Further, we determined whether those expired awards included any unliquidated
obligations or unpaid cost share.

To determine the extent to which awards to sub-recipients of USAID implementing partners were audited,
we interviewed USAID officials in Washington, D.C., and Kabul, Afghanistan, including five contracting
and assistance officers responsible for signing contracts and grant agreements in Kabul, as well as ten of
their technical representatives. In addition, we met with USAID financial management personnel in
Kabul to understand the development of the mission’s award inventories and annual audit plans. We also
met with officials of USAID’s Office of Inspector General based in Washington, D.C., and Kabul,
Afghanistan, to gain an understanding of the OIG’s role in reviewing financial audits of USAID
recipients. Finally, we interviewed representatives from five of the USAID implementing partners in our
sample with operations in Afghanistan to gain an understanding of how they fulfill their financial audit
requirements regarding awards to sub-recipients.

We conducted work in Kabul, Afghanistan, and Washington, D.C., from March 2011 to March 2012 in
accordance with generally accepted government auditing standards. These standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. This audit was
conducted under the authority of Public Law No. 110-181, as amended, the Inspector General Act of
1978, and the Inspector General Reform Act of 2008.




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                  Page 25
APPENDIX II: USAID FINANCIAL AUDIT REQUIREMENTS BASED ON TYPE OF
IMPLEMENTING PARTNER

The following table outlines the different financial audit requirements for various types of USAID
recipients and awards.


Table II: Financial Audit Requirements by Type of Implementing Partner
Type of           Type of award     Audit            Frequency     Criteria            Auditor           Number in
implementing                        threshold                                                              sample
partner

U.S.-based for-   Contract or       Incurred cost Assessed         FAR 52.215-2, FAR DCAA
profit            cooperative       based on risk annually         52.216-7, 220 CFR                          21
organization      agreement         assessment                     226, ADS 591.3.1.2

U.S.-based non- Grant or            $500,000         Annually,     OMB Circular A-133 OIG-approved
profit          cooperative                          based on                         audit firm
                                                                                                              21
organization    agreement                            recipient’s
                                                     fiscal year

Multilateral      Cost-type grant N/A                N/A           ADS 308.3.6         USAID relies
organization      or general                                                           on multilateral
                                                                                                               2
                  contribution                                                         organization’s
                  grant (trust fund)                                                   audit policies

Host government Grant               $300,000         Annually,     ADS 591.3.2.1 and   SAI or OIG-
entity                              ($500,000        based on      OIG Guidelines      approved
                                                                                                               3
                                    cumulative       recipient’s                       audit firm
                                    for close-out)   fiscal year

Non-U.S.-based    Grant or          $300,000         Annually,     ADS 591.3.2.1 and   OIG-approved
non-profit        cooperative       ($500,000        based on      OIG Guidelines      audit firm
                                                                                                               2
organization      agreement         cumulative       recipient’s
                                    for close-out)   fiscal year

Non-U.S.-based    Contract or       Incurred cost Assessed         ADS 591.3.2.1, OIG OIG-approved
for-profit        Cooperative       based on risk annually         Guidelines, 220    audit firm or
                                                                                                               3
organization      Agreement         assessment                     CFR 226, ADS       DCAA
                                                                   591.3.1.2f

U.S. government PAPA, PASA, or N/A                   N/A           ADS 306.3.2.21      USAID and
agency          Interagency                                                            participating
                                                                                                              12
                agreement                                                              agency OIG
                (632(b))

Source: SIGAR analysis of USAID data.




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                           Page 26
APPENDIX III: COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT
                                               SIGAR Comment: This report was originally issued on April 30, 2012.
                                               It was reissued on May 2, 2012, to reflect USAID’s written comments
                                               on a draft of this report. USAID provided its comments to SIGAR after
                                               the original report had been publically released, but SIGAR considered
                                               the comments substantive and necessary for a full understanding of the
                                               issues presented and USAID’s efforts to address them. USAID’s
                                               comments are reproduced here.




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                                      Page 27
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits   Page 28
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits   Page 29
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits   Page 30
SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits   Page 31
           (This performance audit was conducted under the audit project code SIGAR-044A).




SIGAR Audit-12-9 Contract Performance and Oversight/USAID Audits                             Page 32
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction (SIGAR) is to enhance oversight of programs for
                              the reconstruction of Afghanistan by conducting independent
                              and objective audits, inspections, and investigations on the use
                              of taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction
                                      strategy and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management
                                      processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s web site (www.sigar.mil). SIGAR posts all publically
                              released reports, testimonies, and correspondence on its Web
                              site.


To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting allegations
Abuse in Afghanistan          of fraud, waste, abuse, mismanagement, and reprisal contact
Reconstruction Programs       SIGAR’s hotline:

                                  •   Web: www.sigar.mil/fraud
                                  •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                  •   Phone Afghanistan: +93 (0) 700-10-7300
                                  •   Phone DSN Afghanistan 318-3912, ext. 7303
                                  •   Phone International: +1-866-329-8893
                                  •   Phone DSN International: 312-664-0378
                                  •   U.S. fax: +1-703-601-4065


Public Affairs                Public Affairs Officer

                                  •   Phone: 703-545-5974
                                  •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                  •   Mail: SIGAR Public Affairs
                                      2530 Crystal Drive
                                      Arlington, VA 22202
